Office of Audits and Evaluations
Report No. EVAL-12-002


Evaluation of the FDIC’s Monitoring of
Shared-Loss Agreements




                                   February 2012
                                      Executive Summary

                                      Evaluation of the FDIC’s Monitoring of
                                      Shared-Loss Agreements
                                                                                    Report No. EVAL-12-002
                                                                                              February 2012

Why We Did The Evaluation
During the recent financial crisis, the FDIC reintroduced and has frequently used Purchase and
Assumption (P&A) transactions with Shared-Loss Agreements (SLA) to sell failed bank assets. As of
September 30, 2011, the FDIC had entered into 272 SLAs with an initial covered asset base of
$209.5 billion and paid claims totaling $14.6 billion. In 2010 and 2011, the Office of Inspector General
(OIG) issued five confidential audit reports that addressed the compliance of five acquiring institutions
(AI) with the terms of their respective SLAs and the FDIC’s oversight of the SLAs. All of the reports
contained findings and recommendations.

Given the magnitude of the SLA program and prior OIG audit coverage, the objectives of the evaluation
were to (1) evaluate the FDIC Division of Resolutions and Receiverships’ (DRR) overall efforts to
monitor and ensure compliance with the terms and conditions of the SLAs and (2) summarize the findings
and recommendations in the five OIG reports on SLA compliance issued to date and associated actions
that the FDIC has taken.



Background
The FDIC employs a variety of strategies in fulfilling its goal of resolving failed institutions in the least
costly manner to the Deposit Insurance Fund and maximizing net recoveries to the creditors of
receiverships. A common resolution method that the FDIC uses to resolve failed institutions is through a
P&A transaction, wherein an AI purchases some or all of the assets and assumes some or all of the
liabilities of a failed institution. One specific type of P&A Agreement includes both single-family and
commercial SLAs, whereby the FDIC agrees to absorb a portion, generally 80 percent, of the losses on
specified pools of assets purchased by an AI from the failed bank. One of the primary goals of the SLAs
is to allow as many failed bank assets as possible to remain in the private sector, under the management of
an AI. This structure is intended to reduce the FDIC’s burden of managing receivership assets, maximize
asset recoveries, and mitigate losses.

The FDIC provides shared-loss coverage for single-family and commercial assets. Single-family SLAs
typically cover a 10-year period. Commercial SLAs typically cover an 8-year period, with the first
5 years for losses and recoveries and the final 3 years for recoveries only. The AI is paid by the FDIC
when it experiences certain loss events on the covered assets, as described in the SLAs. The FDIC
introduced loss-sharing into selected P&A Agreements in 1991. Faced with an unprecedented number of
bank failures and significant uncertainty about future loan performance and collateral values, the FDIC
reintroduced P&A Agreements with shared-loss coverage in November 2008. Since then, most P&A
Agreements have included a loss-sharing feature.

DRR is responsible for the FDIC’s Risk Sharing Asset Management Program and provides primary
oversight of the SLA program. As a means of evaluating and monitoring AI compliance with the SLAs,
the FDIC also uses third-party contractors, referred to as Compliance Monitoring Contractors (CMC), to
evaluate and monitor AI compliance and to complement DRR staff.




                                  To view the full report, go to www.fdicig.gov
    Executive Summary
                                     Evaluation of the FDIC’s Monitoring of
                                     Shared-Loss Agreements
                                                                                   Report No. EVAL-12-002
                                                                                             February 2012


Evaluation Results
As noted above, the FDIC reintroduced P&A Agreements with SLAs and entered into 272 such
agreements between November 2008 and September 2011. Over 120 SLAs were executed in the first
17 months after they were reintroduced. All of this activity took place as the FDIC was in the midst of
establishing and implementing a monitoring program to address the significant financial and operational
risks associated with the SLAs.

We determined that the FDIC devoted high-level management attention to the quickly expanding SLA
program, including establishing corporate-wide performance goals, convening a Project Management
Office task group, and providing quarterly updates to the Chairman and Audit Committee on the findings
of its AI compliance reviews and planned corrective actions. The Corporation also substantially
increased staff, engaged contractors, and developed procedures and systems to manage the associated
workload and risks.

As a result of these efforts, the FDIC has established a number of controls and processes to monitor and
ensure that AIs comply with the terms and conditions of the SLAs. We also found that the SLA program
is continuing to mature, as evidenced by the recent finalization of policies and procedures, initiation of
training programs, strengthened AI compliance monitoring efforts, and implementation of data resources
to manage program data.

Further, the FDIC was taking steps to enhance:

   information security of its SLA data resources;
   guidance to AIs to encourage more commercial loan modifications and the tracking of such
    modifications;
   tracking of questioned claims and processes for ensuring corrective action in response to AI reviews;
    and
   oversight of AIs by implementing a Proactive Monitoring Initiative to more promptly prevent or
    detect instances of non-compliance.

However, in any program of this size, there will be emerging issues and risks that require monitoring and
attention. In that regard, we are making five recommendations to the FDIC related to the timeliness of
contractor task orders, the efficiency of evaluating contractor performance, the consistency of AI
monitoring efforts, and the sufficiency of guidance for pursuing and reporting recoveries and monitoring
non-compliant AIs. These recommendations are intended to strengthen the SLA program.

With respect to the OIG’s five previous SLA reports, the FDIC implemented corrective actions to address
79 of the 85 recommendations made in those reports, as of January 2012. These reports questioned
$67.4 million in SLA claims paid by the FDIC, and the FDIC had recovered $29.8 million of these claims
as of September 30, 2011. DRR did not pursue recoveries on $6.2 million of the questioned costs, the
vast majority of which resulted from misinterpretations of the SLAs and subsequent events that made
certain questioned costs allowable at a later date. DRR continues to work with the AIs to resolve the
outstanding questioned costs and expects to resolve these issues, as well as the outstanding
recommendations, by March 2012. These OIG reports also included recommendations for enhanced
guidance to AIs and FDIC staff and contractors to better ensure SLA compliance. All of the
recommendations related to these issues had been implemented at the time of our evaluation.



                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Evaluation of the FDIC’s Monitoring of
                                     Shared-Loss Agreements
                                                                                   Report No. EVAL-12-002
                                                                                             February 2012


Management Response

After we issued our draft report, DRR management provided additional information and informal
comments for our consideration, and we revised our report to reflect this feedback, as appropriate. The
Director, DRR, provided a written response, dated February 10, 2012, to the draft report. In the response,
the Director concurred with the report’s five recommendations and agreed to work with the Division of
Administration to address issues involving joint responsibility. DRR expects to complete corrective
actions by July 31, 2012. The planned actions were responsive to the recommendations.




                                 To view the full report, go to www.fdicig.gov
                                     CONTENTS



EVALUATION OBJECTIVES AND APPROACH                                        1

BACKGROUND                                                                3
    Single-family SLAs                                                    3
    Commercial SLAs                                                       4

EVALUATION RESULTS                                                         5
Program Governance and Administration                                      6
      Acquiring Institutions                                               6
      FDIC Division and Office Resources                                   7
      Risks Associated with the FDIC’s Staffing Strategy                  10
      Compliance Monitoring Contractors                                   11
      RSAM Policies and Procedures                                        12
      Data Collection, Management, and Security                           13
      Management Reporting                                                16

Controls to Ensure the Validity of AI Claims                              16
      Accounting for and Reaching Agreement on the Covered Assets         16
      Meetings with AIs                                                   18
      Reviewing Loss Claims                                               18
      Proactive Monitoring Initiative                                     18

Controls to Ensure AIs Are Complying with the Terms of the SLAs           19
      Monitoring and Visitation Plans                                     20
      Ensuring that AIs Treat Covered Assets Similarly to Legacy Assets   20
      Ensuring that AIs Pursue and Report Recoveries                      21
      Single-family Loan Modifications                                    22
      Commercial Loan Modifications                                       23
      Ensuring that Suspicious Activity Reports (SAR) Are Filed           24
      Visitation Reports and Findings                                     24
      Closing Recommendations                                             25
      Addressing Non-Compliance                                           26

Controls Related to Estimating and Evaluating Program Costs               27
      Estimating SLA Costs                                                27
      Comparison of Estimated to Actual SLA Losses                        28
      Comparison of Estimated to Actual CMC Costs                         29

Controls for Terminating SLAs Early                                       29
      Early Terminations                                                  29

Summary of Prior OIG SLA Reports                                          31
    Overview of Findings and Status of Corrective Actions                 31
    Trends in Report Findings                                             33
                                   CONTENTS


OIG EVALUATION OF MANAGEMENT COMMENTS                                       34

APPENDICES
     I. Objectives, Scope, and Methodology                                  35
    II. CMC Feedback on the SLA Program                                     37
   III. Changes in the General Structure of SLAs Since November 2008        38
   IV. Management Comments                                                  39
    V. Summary of Management’s Response to the Recommendations              41

TABLES
    1. Shared-Loss Data by Type of Agreement, as of September 30, 2011       4
    2. Divisions and Offices That Support the SLA Program                    8
    3. Primary Data Resources for the SLA Program                           14
    4. SLA Management Reports                                               16
    5. Visitation Reports and Corrective Action Statistics: 2010 and 2011   25
    6. Report Recommendations and Questioned Costs as of                    31
       September 30, 2011
    7. Status of Recommendations, as of January 26, 2012                    32
    8. Summary of Common Findings in Prior OIG SLA Reports                  33

FIGURE
    Top 10 Bank Failures by Initial Shared-Loss Balance                     4
                               ACRONYMS



AI      Acquiring Institution
APM     Acquisition Policy Manual
CMC     Compliance Monitoring Contractor
CRC     Compliance Review Committee
DIF     Deposit Insurance Fund
DIT     Division of Information Technology
DOA     Division of Administration
DOF     Division of Finance
DPO     Discounted payoff
DRR     Division of Resolutions and Receiverships
FDIC    Federal Deposit Insurance Corporation
GAO     Government Accountability Office
ICE     Integrated Compliance Engine
IT      Information Technology
LSCED   Loss Share Cost Estimate Database
OIG     Office of Inspector General
OM      Oversight Manager
P&A     Purchase and Assumption
PMO     Program Management Office
RMS     Division of Risk Management Supervision
RSAM    Risk Sharing Asset Management
SAR     Suspicious Activity Report
SLA     Shared-Loss Agreement
TOOM    Task Order Oversight Manager
TSO     Temporary Satellite Office
Federal Deposit Insurance Corporation                                                       Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                                    Office of Inspector General


DATE:                                           February 17, 2012

MEMORANDUM TO:                                  Bret D. Edwards, Director
                                                Division of Resolutions and Receiverships


                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Deputy Inspector General for Audits and Evaluations

SUBJECT:                                        Evaluation of the FDIC’s Monitoring of Shared-Loss Agreements
                                                (Report No. EVAL-12-002)


This report presents the results of the Office of Inspector General’s (OIG) evaluation of the
FDIC’s efforts to monitor the closed bank Shared-Loss Agreement (SLA) program. SLAs are
frequently used by the FDIC to resolve failing banks. In such cases, an acquiring institution (AI)
purchases assets from a failing institution and the FDIC agrees to share in the associated losses
and recoveries with the AI at pre-arranged levels. One of the primary goals of loss-sharing is to
allow as many failed bank assets as possible to remain in the private sector, under the
management of an AI. This structure is intended to reduce the FDIC’s burden of managing
receivership assets, maximize asset recoveries, and mitigate losses. The FDIC’s Division of
Resolutions and Receiverships (DRR) is responsible for the FDIC’s Risk Sharing Asset
Management (RSAM) Program, which serves as the primary means of providing SLA program
oversight. As a means of evaluating and monitoring AI compliance with these Agreements, the
FDIC uses third-party contractors to complement its staff.

EVALUATION OBJECTIVES AND APPROACH

This evaluation was undertaken to assess the controls that the FDIC has put in place to protect its
interests with respect to the SLA program. Specifically, the objectives of the evaluation were to
(1) evaluate DRR’s overall efforts to monitor and ensure compliance with the terms and
conditions of the SLAs and (2) summarize the findings and recommendations in the five
confidential OIG reports on SLA compliance issued to date and associated actions that the FDIC
has taken.

To address the first objective, we reviewed the FDIC’s policies and procedures related to the
SLA program and interviewed FDIC program officials in order to understand the existing
governance and control framework, including how program data is collected and used to manage
and evaluate the program. We also interviewed officials from each of the FDIC’s eight
compliance monitoring contractors (CMCs) in order to gain their perspectives on the program.1
1
  We provided DRR with a summary of the results of our interviews. The summary document provided to DRR did
not attribute comments of the CMCs by name.



                                                                 1
Typically, the CMCs assist DRR in monitoring AIs with SLA portfolios greater than
$200 million, and DRR staff independently monitor AIs with SLA portfolios less than or equal to
$200 million. The majority of SLA portfolios are greater than $200 million and are therefore
monitored by the CMCs. We evaluated the extent to which the FDIC has established controls to
help ensure that (1) claims paid by the FDIC are valid and contain supporting documentation,
(2) AIs are complying with the terms of the SLAs, (3) estimated SLA losses are appropriately
derived and compared to actual losses, and (4) SLAs are terminated appropriately.

To address the second objective, we reviewed the five OIG audit reports issued between
May 2010 and June 2011 that assessed the extent to which AIs complied with the terms of their
respective SLAs. The results of these audits were issued as confidential reports with a limited
distribution because they discuss the internal controls of open banks. However, in an effort to
provide a level of transparency with respect to those audits, we summarized the reports’ findings
and recommendations along with the status of the FDIC’s corrective actions.2

We performed our evaluation between May 2011 and October 2011 in accordance with the
Council of Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation. Appendix I includes additional detail on our objectives, scope, and methodology.
Appendix II provides a high-level summary of CMCs officials’ perspectives on the program.
Appendix III provides an overview of how SLAs have evolved since November 2008.
Appendix IV presents the Corporation’s comments on our report. Appendix V contains a
summary of management’s response to the report’s recommendations.




2
  In the latter half of 2011, the FDIC OIG changed its practice and now publicly issues the Executive Summaries of
such reports.


                                                        2
BACKGROUND

The FDIC employs a variety of strategies in fulfilling its goal of resolving failed institutions in
the least costly manner to the FDIC’s Deposit Insurance fund (DIF) and maximizing net
recoveries to the creditors of receiverships. A common method that the FDIC uses to resolve
failed institutions is through a Purchase and Assumption (P&A) transaction, wherein an AI
purchases some or all of the assets and assumes some or all of the liabilities of a failed
institution. One specific type of P&A Agreement includes an SLA, whereby the FDIC agrees to
absorb a significant portion of the losses experienced by an AI on a specified pool of assets. In
exchange, the AI manages the assets. An SLA sets forth the requirements regarding the AI’s
management of the
covered assets as well
as procedures for
notices, consents,
reporting, and
payments. The
adjacent text box
highlights the benefits
that the FDIC
associates with the
SLA program.

The FDIC introduced
loss-sharing into
selected P&A                Source: FDIC
Agreements in 1991
and found that P&A transactions with loss-sharing provisions were less expensive than P&A
transactions without the loss-sharing feature. According to information reported in the FDIC
publication, Managing the Crisis: The FDIC and RTC Experience 1980-1994, the cost to the
FDIC of using 16 P&A Agreements with loss-sharing provisions was 6 percent of failed bank
assets as compared to 10.4 percent of failed bank assets for 175 P&A Agreements executed
without loss-sharing provisions. According to this publication, the savings resulted from the fact
that by using SLAs, failed bank assets remained in the private sector, under the expertise of the
AIs where they could be better managed, as opposed to government ownership where such
expertise was lacking and the assets were more apt to be liquidated at a discount. Faced with an
unprecedented number of bank failures and significant uncertainty about future loan performance
and collateral values, the FDIC reintroduced P&A Agreements with shared-loss coverage in
November 2008.

The FDIC provides shared-loss coverage for single-family and commercial assets, with both
types covering credit losses as well as certain types of expenses associated with troubled assets
(such as advances for taxes and insurance, sales expenses, and foreclosure costs).

Single-family SLAs. These SLAs typically cover a 10-year period. The FDIC provides
coverage for losses associated with the following single-family mortgage events:
(1) modification, (2) short sale, (3) sale of foreclosed property, and (4) charge-offs pertaining to


                                                  3
some second lien loans. Loss coverage also applies to loan sales, provided that prior approval of
the sale was obtained by the FDIC. The AI is paid when a loss is incurred associated with one of
the four single-family loss events.

Commercial SLAs. These SLAs typically cover an 8-year period with the first 5 years for
losses and recoveries and the final 3 years for recoveries only. The AI is paid when the assets
are charged off or written down according to established regulatory guidance or when the assets
are sold.

Since November 2008, most P&A Agreements have included a loss-sharing feature.
Specifically, between November 2008 and September 30, 2011, the FDIC entered into
272 SLAs. Table 1 summarizes shared-loss information by type of Agreement.

Table 1: Shared-Loss Data by Type of Agreement, as of September 30, 2011
                   Initial Covered        Current Covered        Loss Share Claims
Type of                 Assets                 Assets               Paid by FDIC
Agreement                                 (Dollars in $000)
Single-family                                                                     $77,088,818                                                  $52,155,956                           $2,189,506
Commercial &
Subsidiaries                                                                   $130,633,171                                                   $90,209,649                           $12,350,753
Securities                                                                       $1,735,978                                                    $2,214,813                               $20,750
Total                                                                          $209,457,967                                                  $144,580,418                           $14,561,009
Source: OIG-generated based on information from the Division of Finance (DOF) and DRR’s Loss Share
Database.

The figure below shows the 10 failed banks with the largest amount of assets that were initially
subject to shared-loss coverage. Covered assets from these banks included $52.5 billion of
single-family assets and $41.0 billion of commercial assets, for a total of $93.4 billion,
comprising 45 percent of the initial covered asset base.

Figure: Top 10 Bank Failures by Initial Shared-Loss Balance



                        $18
                        $16
  Dollars in Billions




                        $14
                        $12                                                                                                                                                     Commercial
                        $10                                                                                                                                                     Single Family
                         $8
                         $6
                         $4
                         $2
                         $0
                                     k            B                B          n                 k              o           k                k                 k             o
                                   an           FS              FS          ss               an              ic          an              an                an           R
                                                                                                                                                                         ic
                                lB          nk,              d,          n
                                                                           A
                                                                                          y
                                                                                            B
                                                                                                        o
                                                                                                           R           lB              B               alB           to
                              ia           a               te           a               t             t              ia              t                n             r
                            on            B              ni           Lo
                                                                                      n             er              c             us               io              e
                          ol           al              U                           ra             Pu              er           Tr               at               Pu
                        C            er             nk            s
                                                                    &            ua             k                m            m               N               of
                                    d              a             g              G              n               om            A            ia                k
                                  Fe                          in                              a
                                                 B
                                                                                           nb                C                          rn               an
                               ac                           av                         er                  d                        ifo               rB
                                                          S                          st                 te                        al
                           y M
                                                       ey                          e                 ni                         C               m
                                                                                                                                                    ie
                          d                          n                                             U
                        In                                                        W                                                           re
                                                   ow                                                                                       P
                                                 D                                                                                      -G
                                                                                                                                       R
                                                                                                Failed Bank

Source: DRR’s Loss Share Database as of September 30, 2011.


                                                                                                                       4
The loss-sharing provisions of SLAs have evolved since November 2008, as illustrated in
Appendix III of this report. For SLAs executed since March 26, 2010, the FDIC generally
reimburses an AI for 80 percent of losses incurred on covered assets and the AI covers the
remaining 20 percent of losses. Previously, the FDIC shared losses with an AI on an 80/20 basis
until the losses exceeded a stated threshold defined in the SLA, after which the basis for sharing
losses shifted to a 95/5 basis. The stated threshold amount was generally the FDIC’s dollar
estimate of the total projected losses on shared-loss assets. Sharing losses on a 95/5 basis was
eliminated for all SLAs executed after March 26, 2010. Some SLAs were also structured with
loss tranches, whereby the AI assumed a certain amount of losses before loss-sharing began or
loss coverage varied in accordance with pre-defined loss levels. The FDIC estimated the total
cost savings of maintaining SLAs as opposed to immediately selling failed bank assets to be
$40.3 billion.


EVALUATION RESULTS
As noted above, the FDIC reintroduced P&A Agreements with shared-loss coverage and entered
into 272 such agreements between November 2008 and September 2011. Over 120 SLAs were
executed in the first 17 months after they were reintroduced. All of this activity took place while
the FDIC was establishing and implementing a monitoring program to address the significant
financial and operational risks associated with the SLAs.

We determined that the FDIC devoted high-level management attention to the quickly expanding
SLA program, including establishing corporate-wide performance goals, convening a Project
Management Office (PMO) task group, and providing quarterly updates to the Chairman and
Audit Committee on the findings of its AI compliance reviews and planned corrective actions.
The Corporation also substantially increased staff, engaged contractors, and developed
procedures and systems to manage the associated workload and risks.

As a result of these efforts, the FDIC has established a number of controls and processes to
monitor and ensure that AIs comply with the terms and conditions of the SLAs. We also found
that the SLA program is continuing to mature, as evidenced by the recent finalization of policies
and procedures, initiation of training programs, strengthened AI compliance monitoring efforts,
and implementation of data resources to manage program data.

Further, the FDIC is taking or has taken steps to enhance:

   information security of its SLA data resources;
   guidance to AIs to encourage more commercial loan modifications and the tracking of such
    modifications;
   tracking of questioned claims and processes for ensuring corrective action in response to AI
    reviews; and
   oversight of AIs by implementing a Proactive Monitoring Initiative to more promptly prevent
    or detect instances of non-compliance.




                                                 5
However, in any program of this size, there will be emerging issues and risks that require
monitoring and attention. In that regard, we are recommending that the FDIC (1) ensure that it
issues CMC task orders in a timely manner; (2) determine whether there are efficiencies that can
be gained in how the Corporation monitors and assesses contractor performance; (3) issue
guidance to better ensure consistent AI monitoring efforts among DRR staff and the CMCs;
(4) issue guidance on how to evaluate whether AIs are pursuing and reporting recoveries
experienced on covered assets; and (5) enhance its guidance pertaining to monitoring and
implementing actions to address non-compliant AIs.

With respect to the OIG’s five previous SLA reports, the FDIC implemented corrective actions
to address 79 of the 85 recommendations made in those reports. These reports questioned
$67.4 million in SLA claims paid by the FDIC, and the FDIC had recovered $29.8 million of
these claims as of September 30, 2011. Due to misinterpretations of the SLAs, subsequent
events that made certain questioned costs allowable at a later date, and instances where some
questioned costs were later found to be valid or unsupported, DRR did not pursue $6.2 million of
the questioned costs. DRR continues to work with the AIs to resolve the outstanding questioned
costs and expects to resolve these issues, as well as the outstanding recommendations, by March
2012. These OIG reports also included recommendations for enhanced guidance to AIs and
FDIC staff and contractors to better ensure SLA compliance. All of the recommendations
related to these issues had been implemented at the time of our evaluation.

Program Governance and Administration

SLA program governance and administration involves assorted responsibilities for the AIs,
various FDIC divisions and offices, and contractors. These responsibilities are outlined below.
Consistent with its corporate-wide performance goals established for the SLA program, DRR
developed RSAM policies and procedures, conducted on-site compliance monitoring reviews of
the AIs and issued related reports, and provided quarterly updates to the Chairman and Audit
Committee on the findings of its AI reviews and planned corrective actions.3 In 2009, the
FDIC’s Chief Financial Officer established PMO groups to oversee key areas of challenge,
including one for the SLA program. DRR also instituted a training program to ensure that
program staff and contractors understand their responsibilities and are kept up-to-date on
program changes. Finally, as part of its governance structure, DRR utilizes various databases,
applications, and other electronic means to generate reports, track claims, and evaluate program
outcomes.

Acquiring Institutions. AIs’ responsibilities are described in the SLAs and generally include
the following:

   manage, administer, and collect amounts owed on SLA assets using normal and prudent
    business and banking practices as required under customary servicing procedures (which are
    defined in the SLA);

3
  To meet one of its performance goals, by the end of 2011, DRR stated that it conducted on-site visitations of all
the AIs participating in the SLA program and issued final reports and corrective action plans for at least 75 percent
of those reviews, including all AIs with SLAs valued at more than $1 billion.


                                                          6
   strive to maximize collections on shared-loss assets without favorable treatment of any assets
    owned by the AI or its affiliates that are not shared-loss assets;
   comply with single-family loan modification guidelines with the objective of minimizing
    losses to the AI and the FDIC and maximizing the opportunity for qualified homeowners to
    remain in their homes with affordable mortgage payments;
   provide to the FDIC certificates, notifications, and required reports, including annual internal
    audit reports describing their compliance with the SLAs; and
   permit the FDIC and outside parties to monitor the AI’s performance of its duties under the
    SLA.

FDIC Division and Office Resources. The FDIC has invested a substantial number of staff and
contractor resources to the increased resolution and receivership workload resulting from the
financial crisis, including the shared-loss program. Most notably, DRR has increased its overall
staffing from 223 to 2,100. As of September 30, 2011, 196 of those 2,100 staff were dedicated
to SLA operations. Table 3 summarizes the roles and responsibilities of DRR and other FDIC
organizations that support the SLA program.




                                                 7
Table 2: Divisions and Offices that Support the SLA Program
              FDIC Office                              Role/Responsibility
                              Headquarters                             Provides overall oversight and management of the
                                                                        SLA program.
                                                                       Establishes and implements policies, processes,
                                                                        procedures, and delegations of authority for the
                                                                        management of SLA program.
                                                                       Provides advice for resolving disputes between the
                                                                        AIs and the FDIC such as whether certain claims are
                                                                        permitted under the program.
                                                                       Handles policy issues, prepares management reports,
                                                                        and conducts briefings pertaining to the SLA
                                                                        program.
                              Dallas Field Operations Branch           Responsible for SLA monitoring activities.
DRR




                                                                       Compliance oversight functions pertaining to the
                                                                        CMCs, DRR, and AIs are consolidated in this office.
                                                                       Implements policies and procedures related to the
                                                                        SLA program.
                              Temporary Satellite Offices (TSO) *      Responsible for SLA monitoring activities.
                               West Coast                             Functions will be merged into the DRR Headquarters
                               Midwest                                 and Dallas Field Operations Branch as the TSOs
                               East Coast                              close.
                                                                       Implements policies and procedures related to the
                                                                        SLA program.
                              Internal Review                          Performs periodic assessments of the internal controls
                                                                        in place within, and evaluates compliance with, the
                                                                        SLA program.
                              Legal Division                           Provides legal advice, guidance, and assistance in
                                                                        interpreting provisions associated with P&A
                                                                        Agreements and SLAs.
Other Divisions and Offices




                              Division of Finance (DOF)                Records in the FDIC’s financial statements, estimated
                                                                        SLA liabilities, which are calculated by DRR.
                                                                       Adjusts the estimates each month, based on actual
                                                                        FDIC payments.
                              Corporate Management Control,            Assists DRR with its process of ensuring AIs have
                              DOF                                       taken adequate corrective action to address CMC
                                                                        recommendations directed towards the AIs.
                                                                       Reviews draft policies and procedures related to the
                                                                        SLA program from a risk perspective to ensure that
                                                                        the program includes requisite controls.
                                                                       Performs certain testing to identify risks and internal
                                                                        control deficiencies in the SLA program.
                              Division of Risk Management              Monitors AIs’ compliance with certain SLA
                              Supervision (RMS)                         requirements, as part of its examinations.
Source: OIG-generated based on OIG review of RSAM policies and procedures.
* The West Coast TSO closed on January 13, 2012. The Midwest TSO is scheduled to be closed on
September 28, 2012. The East Coast TSO will remain open until at least the fourth quarter of 2013 and
the FDIC expects to establish a closing date in late 2012 or early 2013.




                                                                        8
Many of the staff responsible for shared-loss monitoring are located in one of the FDIC’s three
TSOs. The FDIC’s Board approved the creation of the TSOs to address the increased workload
associated with the resolutions and receivership activity. The TSOs are primarily staffed by
non-permanent FDIC employees and contractors. Key RSAM staff and their responsibilities
include:

   TSO Office Managers

            o Manage RSAM Specialists/Task Order Oversight Managers (TOOM),4 Data
              Specialists, and Technicians;
            o Prepare evaluation reports for headquarters’ staff; and
            o Monitor contractor performance.

   RSAM Specialists/TOOMs

            o   Serve as primary points of contact for the AIs;
            o   Monitor AI compliance with the SLAs;
            o   Monitor contractor performance, review invoices, and accept deliverables;
            o   Validate AIs’ certificates and data submissions;
            o   Generally oversee a number of AIs; and
            o   Report to one of DRR’s four Oversight Managers (OM).

   OMs

            o Manage contractor relationships and track contractor performance and
            o Foster communications and act as a liaison between the AIs, CMCs, and DRR
              staff.

   Technicians

            o Provide administrative support to the RSAM specialists, data specialists, and TSO
              managers;
            o Assist in preparing the schedules of covered assets; and
            o Assist in the processing of data submissions and certificates for payment
              submitted by the AIs.

Finally, RMS is responsible for conducting safety and soundness examinations of banks whose
primary federal regulator is the FDIC. According to a May 2010 RMS memorandum,5 when
examining banks that have SLAs in effect, examiners are supposed to:




4
  RSAM specialists are DRR staff that directly monitor AI compliance with an SLA. TOOMs are DRR staff who
coordinate with and oversee a CMC’s efforts to monitor an AI’s compliance with an SLA.
5
  Division of Risk Management Supervision: Examinations of Institutions with Assets Covered by Loss-Sharing
Agreements, Memorandum No. 2010-018, May 6, 2010.


                                                     9
   Consider the impact of SLAs when performing asset reviews, assessing accounting entries,
    assigning adverse classifications to assets, and determining examination ratings and
    conclusions.
   Assess whether the AI applies its loan administration processes, credit risk management
    policies, and loss recognition and charge-off standards to SLA-covered assets in a manner
    consistent with its treatment of assets not covered by SLAs (referred to as legacy assets,
    hereinafter).
   Consult with the appropriate RMS regional office to determine whether the AI is in
    compliance with the SLA and that the FDIC’s shared-loss coverage remains in effect.
   Determine the appropriateness of the accounting for the AI’s acquisition of the failed bank.

RMS amended its 2010 internal guidance in October 2011 to enhance coordination between
RMS and DRR and to avoid duplicating efforts.6 The memorandum states that DRR should
provide RMS with a copy of visitation reports and RMS should accommodate information
requests from DRR for banks with SLAs. The guidance also states that the Federal Reserve
Board, the Office of the Comptroller of the Currency, and state banking supervisors should be
invited to participate in the FDIC’s shared-loss oversight efforts so the FDIC can be informed of
important developments regarding an acquiring national or state-chartered bank’s financial
condition and performance under an SLA.

Risks Associated with the FDIC’s Staffing Strategy. Although the FDIC increased its staff to
handle the workload associated with the failed banks during the financial crisis, the majority of
the TOOMs and OMs are term employees with terms of 2 to 4 years.7 DRR elected to hire term
employees as opposed to permanent employees because the workload associated with SLAs is
expected to decline steadily based on the following factors:

   The SLAs will become more seasoned and presumably require less oversight,
   The rate of bank failures is projected to decrease, and
   DRR believes that an increasing number of AIs will terminate their SLAs early.

The FDIC has successfully used term employees in the past to address temporary workload
surges. However, in this instance, the length of the term appointments creates some challenges
with respect to providing continuity, given that the SLAs have longer time spans (8 to 10 years)
than the term appointments. As one might expect in these circumstances, some term employees
have left the FDIC before their terms expired. According to FDIC and CMC officials, these
departures have resulted in some loss of institutional knowledge and impacted the consistency of
communication between the CMCs and the AIs.

To help mitigate risks associated with the TSO closings, the FDIC developed a Functional
Continuity Project Plan, to ensure that core business functions, critical documentation, and
6
   Division of Risk Management Supervision: Amendment to Memorandum 2010-018: Examinations of
Institutions with Assets Covered by Loss-Sharing Agreements, Memorandum No. 2011-023, October 14, 2011.
7
  We reviewed a judgmentally selected sample of 27 of the 58 OMs and TOOMs at the FDIC as of July 18, 2011,
and found that all of the sampled individuals had completed required oversight management training. In addition,
the FDIC produced signed appointment memoranda for all sampled individuals, which outlined their responsibilities
and tasks, in response to exceptions that we identified.


                                                       10
electronic files are accounted for and successfully migrated into DRR’s headquarters and/or the
Dallas Field Operations Branch, as the TSOs close. The objectives of the Plan are to:

   Provide early warning of significant issues that may adversely affect DRR,
   Establish a framework for coordination and cooperation,
   Ensure that DRR’s mission is continued with minimal disruptions, and
   Maximize effectiveness, efficiency, and consistency of operations.

Compliance Monitoring Contractors. DRR relies on CMCs to perform on-site visits of the
AIs and review loss claims for compliance with the SLAs. The eight CMCs provide
approximately 265 additional staff to assist DRR. DRR typically assigns a CMC by issuing a
task order, which outlines a CMC’s duties associated with monitoring an AI’s compliance with
the P&A Agreement and conducting site visitations. DRR works with the Division of
Administration’s (DOA) Acquisition Services Branch to carry out contracting activities and is
subject to controls included in the FDIC’s Acquisition Policy Manual (APM), including
requirements associated with the protection of confidential or sensitive information about
borrowers.

We reviewed the 24 CMC task orders that were issued from March 2011 through July 2011,
which corresponded to P&A Agreements signed from March 2010 through January 2011, to
determine how long it took the FDIC to issue a task order. We found task orders were issued an
average of 258 days (approximately 8.5 months) after the corresponding P&A Agreements were
signed. We noted the trend was improving; that is, less time was required to issue the more
recent task orders in our sample. DRR attributed the improvement to its increased experience
with the SLA program.

DRR has not, however, established a firm goal for the timeframes in which a CMC task order
should be issued. One CMC that we interviewed stated that, ideally, task orders should be issued
so that the first on-site visitation is conducted shortly after the AI files its first claim with the
FDIC. This timeframe appears appropriate because it allows the CMC to review a sample of an
AI’s initial claims and identify any areas of non-compliance at an early stage. The time it takes
an AI to issue its first SLA claim varies, as it depends on several factors such as the condition of
the failed bank’s records, and the size, complexity, and performance of the covered assets.
Given the important role the CMCs play in the RSAM program, DRR and DOA should continue
to work towards issuing task orders in a timelier manner and establish an appropriate timeframe
goal for doing so. Accordingly, we recommend that the Director, DRR, in conjunction with the
Director, DOA:

       Recommendation 1. Review the current process for issuing task orders to
       determine whether there are opportunities for streamlining and then establish a
       goal for the timeframe within which a CMC task order should be issued.

The FDIC’s APM generally requires that program offices evaluate the performance of its
contractors on an annual basis. Information on a contractor's performance is critical for
subsequent contract awards and also a primary means of reporting contractor performance data
to management. Accordingly, DRR managers complete a required DOA evaluation form rating


                                                 11
the quality of the CMC’s work products, cost-effectiveness, timeliness, business relations, and
customer satisfaction for DOA. DRR aggregates and maintains the information in an Excel
spreadsheet. For most of the 67 performance evaluations completed through October 17, 2011,
DRR has rated the CMCs as “good or better.”

In August 2011, in addition to completing DOA’s evaluation form, DRR began separately
evaluating the CMCs based on their performance at the on-site visitations of the AIs. DRR’s
rating form is substantially similar to DOA’s, but DRR’s form contains more specific criteria
relevant to a CMC’s shared-loss review responsibilities. DRR compiles its CMC performance
ratings into a management report. However, many of the on-site visitations are performed
annually, which means that DRR’s evaluations are not likely to provide more timely information
on the CMC’s performance than the evaluations required by DOA. We recognize that DRR
implemented its evaluation process with the intent to more effectively assess the CMCs’
performance, which is important given their role and the funds expended for their services.
However, there may be opportunities for improving the efficiency of the two evaluation
processes. Accordingly, we recommend that the Director, DRR, and the Director, DOA:

       Recommendation 2. Evaluate the DOA and DRR evaluation processes and
       related forms and determine whether there are efficiencies that can be
       gained in how CMC contractor performance is monitored and assessed, and
       take appropriate action.

RSAM Policies and Procedures. As the SLA program has evolved, DRR has worked to
finalize policies and procedures for managing and monitoring SLAs. The RSAM Manual was
finalized in July 2011 and a technical direction manual for the CMCs was issued in June 2011.
The RSAM Manual outlines the responsibilities of DRR, AIs, and contractors, and contains an
overview of key program activities and related guidance. Guidance in the RSAM Manual is
supplemented by a myriad of job aids and checklists, which are available on a DRR SharePoint
site and on an FDIC secure virtual data room for AIs and CMCs. The job aids contain detailed
guidance pertaining to paying claims, finalizing the schedules of covered assets, monitoring
compliance with specific provisions in the Single-Family and Commercial SLAs, overseeing
contractors, and terminating SLAs. The technical direction manual outlines CMC reporting
timeframes and provides specific guidance on categorizing findings, reviewing AI single-family
loan modification programs and modification denials, selecting statistically valid samples,
reporting questioned costs, reporting findings and observations, formatting the visitation reports,
and monitoring AIs to ensure that findings are addressed. This manual is designed to foster
greater consistency among the CMCs’ monitoring efforts and visitation reports.

Policies and procedures help ensure that management’s directives are implemented consistently
and completely and document the processes that should be followed to ensure that a program’s
objectives are met. Policies and procedures are an important element of a strong internal control
program.




                                                12
DRR has also developed training programs related to SLA management and monitoring
activities. Because many of the program staff were hired as new, term employees, strong
training and
development
                        DRR Training Initiatives
programs are
important to quickly
building                Between May and October 2011, DRR conducted training related to:
competencies and
job knowledge.           finalizing schedules of covered assets;
DRR conducts             processing and reviewing the validity of claims, including the
training for its own        Proactive Monitoring Initiative and interpretation of electronic claim
staff, including new        reviews;
employees, the AIs,      CMC’s monitoring responsibilities;
and CMCs to              loan modification guidelines;
reinforce policies       documentation of findings in visitation reports;
                         tracking corrective actions, including the use of DRR’s Integrated
and procedures.
                            Compliance Engine (ICE) data resource;
DRR plans to update
                         changes to the P&A agreements; and
staff on new policies    the early termination process.
approximately every
6 months.

Data Collection, Management, and Security. DRR relies on various databases, applications,
and other electronic means to generate reports, track claims, and evaluate program outcomes.
Table 3 provides an overview of the primary data resources that DRR uses to monitor the SLA
program.




                                                  13
Table 3: Primary Data Resources for the SLA Program
           Source                               Description / Purpose
Loss Share SharePoint Site       An FDIC storage facility containing P&A Agreements for each AI,
                                 visitation reports, claim filings, training materials, written guidance, and
                                 other SLA resource materials. DRR and other FDIC staff who support
                                 the SLA program have access to this site.
Virtual Data Room                A secure FDIC Web site that the FDIC uses to post documents and
                                 exchange comments with internal and external users. Within the SLA
                                 process, the virtual data room is used to exchange bank data and
                                 supporting documentation between the FDIC, AIs, CMCs, and other
                                 contractors.
Data Aggregator                  A contractor, referred to as the data aggregator, provides the FDIC with
                                 the ability to electronically review SLA claims; store, manage, and
                                 analyze SLA data; produce management reports; and perform statistical
                                 analyses.
Loss Share Database              A DRR database that houses loan and loss claims data and tracks SLA
                                 program activity by receivership. Using this database, the FDIC is able
                                 to produce management reports identifying the assets subject to shared-
                                 loss coverage. The database is populated through manual entry, and in
                                 2012, DRR expects to implement a means to automatically populate the
                                 database and migrate it into the data aggregator.
Risk Share Analysis Database     A DRR database containing loan-level details on the initial and final
                                 schedules of shared-loss assets and summary information on claim
                                 filings. Data from this database is used to create management reports.
Loss Share Cost Estimate         Datasets containing basic data from the initial and updated resolution
Database (LSCED) and Other       cost estimates for shared-loss failures. LSCED contains initial
Related Datasets                 estimates. Two other datasets contain more up-to-date estimates. These
                                 datasets are used for reporting, research, and analysis.
Dashboard Oracle Environment     Oracle database with a wide variety of data that supports the Chairman’s
                                 dashboard. Contains data on resolutions, SLAs, receiverships, and
                                 industry aggregates. This database is used for managerial reporting.
Integrated Compliance Engine     A DRR data resource deployed on July 26, 2011, used to identify and
(ICE)                            record the disposition of all recommendations contained in the CMC
                                 visitation reports.
Source: OIG-generated based on information from DRR.

DRR officials view the data aggregator to be one of the program’s key data resources. Among
other things, the data aggregator will:

   process monthly and quarterly SLA financial data from the AIs and validate and consolidate
    the information to meet the FDIC’s operational and reporting requirements;
   provide the FDIC with an enhanced ability to electronically review SLA claims;
   store and manage SLA data;
   produce management reports;
   allow FDIC staff to perform statistical analyses, and manage overall SLA cash flow
    projections and exposure to risk; and



                                                14
   provide a secure user interface, allowing a minimum of 100 users to concurrently query the
    data.

As part of its 2010 financial statement audit, the U.S. Government Accountability Office (GAO)
found that the FDIC had not established appropriate internal controls associated with several of
the data resources that DRR uses to monitor the SLA program. In its response, the FDIC
concurred with GAO’s finding that additional internal controls were required over the SLA
business processes and stated that the associated data resources deserve proper identification,
assessment, and protection.8 For instance, some of DRR’s data resources consisted of Excel®
spreadsheets and databases, which had not been assessed from an Information Technology (IT)
perspective or subject to IT security reviews.

On June 30, 2011, DRR issued a plan to address GAO’s concerns. Pursuant to this plan, staff in
DRR and the Division of Information Technology (DIT) started to evaluate the IT controls
surrounding several of the SLA data resources and made decisions regarding which ones to
retain, discontinue, or migrate into the data aggregator. By the end of 2011, DRR plans to issue
a report describing the work performed and changes that were made to improve IT controls.
DRR and DIT plan to perform additional work in 2012 to ensure the confidentiality, integrity,
and availability of SLA data resources.




8
  GAO Report: Information Security: Federal Deposit Insurance Corporation Has Made Progress, but Further
Actions Are Needed to Protect Financial Data (GAO-11-708), August 2011.


                                                    15
Management Reporting. To monitor and manage the program, DRR and other FDIC offices
produce management reports outlining various aspects of the program. Table 4 describes some
of the primary SLA-related management reports.

Table 4: SLA Management Reports
       Report                                             Description
Loss Sharing Summary     A monthly report that shows the initial assets subject to loss sharing, SLA
Report                   losses and recoveries, and FDIC payments broken out by each failed
                         institution.
PMO Report               A monthly report to the Chairman that provides a snapshot of the SLA
                         program, including claims paid to date, the balance of covered assets, a
                         comparison of estimated SLA claims to actual claims, delinquency rates of
                         SLA assets compared to the overall market, loss severity trends for the largest
                         single-family portfolios, and SLA program accomplishments. The report also
                         tracks the status of OIG recommendations contained in OIG reports on SLA
                         compliance.
Quarterly Report to      A quarterly report that contains information on SLA activities and
the Chairman and         accomplishments, among other things. The most recent report, dated
Audit Committee          July 8, 2011, documented DRR’s progress in conducting compliance reviews,
                         resolving compliance review findings, providing guidance to CMCs to
                         enhance the quality and consistency of their reviews, and meeting corporate
                         goals associated with the SLA program.
DRR at a Glance          A weekly report that identifies SLA staffing resources, resolution activities,
Report                   and information about contract awards.
Loss Sharing Summary     A monthly report showing the balance of assets subject to loss-sharing,
Net Payments Report      estimated losses, actual losses, FDIC payments, and recoveries.
RSAM Watchlist           A report used to track and monitor AIs that warrant increased scrutiny.
Report
                         A report generated for each shared-loss transaction, which contains high-level
SLA Report               information about the closed bank and AI.
Source: OIG-generated based on information from DRR and DOF.

We reviewed these reports and determined that they contained information useful to assist
management in monitoring the progress of the SLA program, tracking claims, and staying
abreast of AIs that do not comply with the SLAs.

Controls to Ensure the Validity of AI Claims

To help ensure that SLA claims are valid and contain adequate supporting documentation, DRR
established processes to properly account for and reach agreement with the AIs on the covered
assets, meet with the AIs to discuss program requirements, and review SLA claims. DRR also
established a Proactive Monitoring Initiative to address program risks.

Accounting for and Reaching Agreement on the Covered Assets. An integral part of the
SLA monitoring program is identifying the single-family and commercial assets for which the
FDIC provides shared-loss coverage. Schedules 4.15A and 4.15B of the SLA contain listings of


                                                 16
all of the single-family and commercial assets subject to SLA coverage, respectively. DRR’s
goal is to prepare the draft and final schedules within 30 and 120 days of the bank closing date,
respectively. The steps involved in developing the schedules include:

   Preparing the initial 4.15A and 4.15B schedules. These schedules list assets covered by
    the SLAs and include the value of the assets, as assigned by DRR. DRR samples assets to
    help ensure the assets are listed on the correct schedules.

   DRR’s review and approval. DRR staff in headquarters and the responsible TSO review
    and approve the schedules. These review processes are done to ensure (1) mathematical
    accuracy of aggregate amounts listed in the schedules, (2) each asset is assigned a unique
    identification number, and (3) all changes to the draft schedules are reviewed and approved
    by DRR officials.

   AI’s review. AIs are allowed to review the draft schedules and request that additional assets
    be added to or deleted from the schedules or moved from one schedule to the other. The
    FDIC requires the AIs to produce documentation to support any assets that they want to add
    to the schedules.

   Signing letter of agreement. Once DRR and the AI agree on the assets that should be
    included in the schedules, they sign a standard letter, which acknowledges their agreement to
    all of the assets listed in the final schedules. After the letter is signed, DRR uploads the draft
    and final schedules and any other related information to SharePoint.

According to FDIC officials, most changes requested by the AIs consist of moving assets from
one schedule to the other because of misclassifications between schedules 4.15A and 4.15B.

In June 2011, DRR stated that it was taking 14-21 days from the bank closing date to draft the
schedules but an average of 157 days to finalize the schedules. DRR officials stated that the
quality of the closed bank’s records and the timeliness of the AI’s support for proposed
adjustments impacted their ability to timely finalize the schedules. We reviewed the 15 most
recently closed banks with SLAs as of June 16, 2011, to assess how long it took DRR to finalize
schedules 4.15A and 4.15B. We found that the time to finalize the schedules ranged from 119 to
207 days, averaging 152 days. Finalizing the schedules in a timely manner is important to help
ensure that all parties are clear as to what assets are covered by an SLA. DRR should continue to
monitor its progress in meeting its goal of finalizing schedules 4.15A and 4.15B within 120 days
of a bank closing and implement additional procedures, as appropriate, to meet this goal.

Currently, the FDIC permits AIs to submit claims based on draft schedules 4.15A and 4.15B and
when the draft schedules are finalized, the claims must be based on the final schedules.
Therefore, we performed a test to determine the extent of differences between the draft and final
schedules. We compared the draft and final schedules for 15 of the most recently closed banks,
based on information contained on DRR’s SharePoint site as of July 19, 2011. Overall, we
found that the number and dollar amount of assets in schedules 4.15A and 4.15B did not vary
significantly from the draft to final schedules. Based on our results, DRR’s approach of allowing
claims to be based on the draft schedules seems to be reasonable and efficient.


                                                  17
Meetings with AIs. RSAM specialists conduct meetings with the AIs to explain SLA
requirements, loan modification programs, ongoing monitoring activities, reporting, and other
compliance and data requirements.

Reviewing Loss Claims. AIs submit claims to the FDIC for reimbursements of losses
associated with SLA assets. An AI is permitted to submit single-family claims on a monthly
basis and commercial loss claims on a quarterly basis. DRR and the CMCs initially conducted
manual reviews of the claims and corresponding data but these reviews are now performed
electronically by the data aggregator. As part of the electronic review process, each claim is
checked against data specifications pre-defined by the FDIC and a report is generated that
assigns each data field with a “pass,” “warning,” or “fail” notification. The AI must correct all
of the “fail” and address certain “warning” notifications before the FDIC will pay the claim.

Proactive Monitoring Initiative. Originally, the FDIC paid claims and subsequently reviewed a
sample of claims to determine whether they were accurate and complied with SLA provisions.
While the FDIC generally continues this practice, in 2011, it developed a Proactive Monitoring
Initiative to further address risks in the SLA program. Through this initiative, the FDIC now
requests documentation from AIs in support of certain large claims on commercial certificates
before making payments and reviews a sample of such submittals. These claims include those
that exceed $1 million, and that are included in commercial certificate filings totaling more than
$25 million.9 These proactive reviews are intended to:

     mitigate the risks of paying unsupported or excessive loss claims,
     provide DRR with advance information about an AI’s charge-off methodology,
     better ensure that AIs submit supportable claims, and
     satisfy an internal FDIC requirement to review commercial certificates with total claims over
      $25 million.

DRR reported that the AIs are complying by sending in the supporting documentation and in a
few rare instances, the FDIC has delayed payments due to insufficient documentation.

As part of its Proactive Monitoring Initiative, DRR RSAM staff also started visiting the largest
AIs to:

     foster communications between DRR and the AIs and address issues in a timely manner,
     assess AIs’ loss mitigation strategies and efforts to maximize collections,
     encourage loan modifications, and
     qualitatively assess the AIs’ effectiveness in carrying out required SLA provisions.

DRR’s RSAM staff plan to visit the AIs on an annual or semiannual basis. As of
December 31, 2011, DRR completed 18 reviews and found that the AIs were generally
complying with the SLA provisions but needed to increase their efforts to modify commercial
loans. DRR plans to complete six AI reviews in January 2012 and then schedule additional
reviews for 2012. The FDIC estimated that these 24 AIs account for 70 percent of the remaining

9
    At the time of our fieldwork, the FDIC had not established a similar process for single-family claims.


                                                           18
expected SLA losses. DRR’s loss mitigation team provided training and written guidance to
DRR staff on how to perform these assessments.

Although not required by the SLAs, DRR has also asked that AIs provide advance notice to the
FDIC before executing discounted payoff (DPO) transactions. A DPO transaction may occur
when a bank charges off a certain portion of an impaired loan and then works with a borrower to
close out the loan by collecting as much of the remaining balance as possible. The bank may
agree to accept an amount that is less than the remaining balance of the loan, provided the
borrower pays the bank upfront. The AI is permitted to seek reimbursements from the FDIC on
losses related to DPO transactions. DRR has not yet issued related guidance in this area.
DRR would like to review these transactions prior to their execution, to:

   confirm that the DPO will maximize collections,
   confirm that the AI considered other alternatives such as loan modifications,
   mitigate the potential risk that an AI will accept a greater discount than it would with its
    legacy assets because of the FDIC’s shared-loss coverage, and
   confirm that the assessed value of the associated asset is current.

In November 2011, DRR developed SLA reports for each AI, which contain high-level
information about the closed bank and the AI, the single-family and commercial asset balances,
the dates of compliance visitations, when the covered asset schedules were completed, upcoming
and recent events, and operational concerns. DRR uses these reports as management tools to
stay abreast of current issues regarding the AIs.

Collectively, DRR’s efforts to proactively review AIs’ claims and key transactions, visit the AIs,
and develop snapshot reports should strengthen existing controls and further guard against
paying unsupported claims.

Controls to Ensure AIs Are Complying with the Terms of the SLAs

Under the RSAM program, CMC or DRR staff perform on-site and off-site monitoring activities
to ensure that the AIs are complying with the terms of SLAs. As discussed earlier in this report,
the CMCs assist DRR in monitoring AIs with SLA portfolios greater than $200 million, and
DRR staff independently monitor AIs with portfolios less than or equal to $200 million. The text
box below provides an overview of the on- and off-site monitoring activities.




                                                 19
Overview of On-Site and Off-Site Compliance Monitoring Activities

On-Site Activities
 Review certificates and supporting documentation.
 Review loan files to support claims for covered losses.
 Follow up with AI management on corrective actions taken to remediate prior findings.
 Review AI policies and procedures and shared-loss loan files to ensure shared-loss assets
  are treated in a similar manner to the AI’s legacy loans.

Off-Site Activities
 Review and analysis of certificates and supporting data packages submitted by the AIs.


Monitoring and Visitation Plans. Each CMC firm develops its own monitoring and visitation
plans based on DRR guidance and its own expertise. DRR staff also develop monitoring and
visitation plans for the AIs they directly monitor on their own. The monitoring plan establishes
the strategy and action plan for evaluating an AI’s overall compliance with the P&A Agreement
and includes a visitation plan. The TOOM determines the frequency of the CMC visits,
considering the risk and size of the AI’s SLA portfolio and overall compliance with the SLA. In
general, visitations are conducted semi-annually or annually over the term of the SLA. A review
of unaudited claims may be performed prior to terminating an SLA. The TOOM also approves a
CMC’s visitation plan, which provides specific work-steps to perform during an on-site
visitation. For example, the visitation plan consists of testing scripts, checklists, and other
documents outlining the approach to assessing an AI’s compliance with the P&A Agreement.
The monitoring and/or visitation plans also include a methodology for selecting a statistically
valid sample of loans to review during an on-site visitation, as required by DRR’s guidance.

While the CMCs and DRR can and should develop monitoring and visitation plans to fit the risk
factors associated with specific AIs, we reviewed a sample of eight plans and found that the
CMCs and DRR are using very different plans to assess compliance. For example, some plans
contained detailed procedures for testing an AI’s compliance with specific provisions of the
SLAs, while others did not. We believe more structured guidance would provide additional
assurance that the approach for monitoring AIs is consistent. Accordingly, we recommend that
the Director, DRR:

       Recommendation 3. Conduct a review of the CMC and DRR monitoring and
       visitation plans to identify best practices, testing areas, and core elements that
       should be included in all of the monitoring and visitation plans and develop and
       issue additional guidance.

The following sections of the report summarize what we learned from our discussions with the
CMCs regarding their efforts to evaluate the extent to which AIs were meeting their
responsibilities under the P&A Agreements.

Ensuring that AIs Treat Covered Assets Similarly to Legacy Assets. A significant portion
of SLA claims result from assets charged off by an AI, and a risk exists that AIs will charge off
SLA assets prematurely or manage the SLA assets less prudently than legacy assets because the


                                                20
AI is only responsible for 20 percent of the associated losses. DRR officials also expressed a
concern that AIs may submit a larger number of loss claims just before SLA coverage ends. To
help mitigate these risks, the Single-family and Commercial SLAs require an AI to use its best
efforts to maximize collections on covered assets. Further, the Commercial SLA allows the
FDIC to purchase charged-off assets if the AI does not diligently pursue collection efforts.

All of the CMCs interviewed stated that they compared how the AIs charged off SLA assets to
their charge-offs of legacy assets to ensure that the AIs applied consistent policies in this area.
For example, the CMCs determined whether the AIs charged off SLA assets more aggressively
than legacy assets. The CMCs also stated that AIs were generally in compliance with rules
pertaining to charge-offs and treated their SLA and legacy assets in a similar manner. However,
the CMCs also stated that they had identified AIs that aggressively charged off SLA assets. One
CMC said that two or three of its AIs applied significantly higher discount rates to appraisals for
its SLA assets, compared to its legacy assets.

CMC officials commented that their monitoring efforts to ensure consistent treatment of SLA
and legacy assets can be difficult because (1) an AI’s SLA assets may be inferior to its legacy
assets and (2) some actions that an AI takes regarding the disposition of an asset involve business
decisions that can be unique to the asset, making it more difficult to determine if the AI treats its
SLA and legacy assets in a similar manner.

Ensuring that AIs Pursue and Report Recoveries. The SLAs are structured such that the
FDIC shares in recoveries associated with covered assets and AIs are required to include
recoveries in their loss claims. Recoveries constitute funds collected on assets that were fully or
partially charged off by the closed bank or AI. The risk exists that the AIs may not pursue
recoveries as vigorously as they should because they may only share in a relatively small
percentage of recoveries. Further, AIs may not have controls in place to identify and report
recoveries to the FDIC. Originally, the AIs were required to provide 80 percent of all recoveries
to the FDIC. During 2010, to increase the incentive for AIs to pursue recoveries, the FDIC
changed the percentage of recoveries required to be remitted for zero balance Commercial SLA
assets to 50 percent.10 Zero balance assets refer to assets that were fully charged off by a closed
bank and then acquired by an AI. In all other circumstances, the AIs are still required to remit
80 percent of recoveries to the FDIC.

Although some CMCs did not view tracking and reporting recoveries to be a large-scale problem
or to pose significant risks, others believed additional guidance was needed to mitigate the risks
that AIs are not reporting recoveries. DRR has not issued formal guidance outlining how DRR
and the CMCs should review an AI’s portfolio to determine whether an AI is appropriately
reporting recoveries. As a result, the monitoring efforts performed by the eight CMCs and DRR
could vary.

Further, DRR’s controls surrounding recoveries associated with zero balance assets need to be
strengthened. The FDIC did not initially include zero balance assets on the covered asset

10
   Recoveries pertaining to Commercial SLA assets are more prevalent than recoveries on Single-family SLA
assets.


                                                      21
schedules, which made it difficult to track associated recoveries and corresponding remittances
to the FDIC. In 2010, DRR began listing zero balance assets on the covered asset schedules. In
2011, DRR assigned a unique asset identification number to each covered asset in all of the
previously executed SLAs, including zero balance assets, provided they were listed in the
original asset schedules. Asset identification numbers, which are now routinely assigned when
new SLAs are executed, enable DRR to better track the disposition of covered assets. DRR
officials informed us that they may not be able to identify zero balance assets that were not
included on the original schedules of covered assets. Accordingly, with respect to recoveries, we
recommend that the Director, DRR:

        Recommendation 4. Issue guidance to DRR staff and the CMCs on how to
        evaluate whether AIs are sufficiently pursuing and reporting recoveries on
        covered assets. Guidance should include procedures for testing whether
        recoveries have been made on any zero balance covered assets.

Single-family Loan Modifications. The AIs are required to modify single-family loans and to
pursue other loss mitigation efforts to minimize foreclosures, when possible. The SLA requires
AIs to have a single-family loan modification program in place. An AI may use the loan
modification program implemented by the FDIC or the Treasury.11 Conversely, an AI may adopt
its own proprietary program, subject to FDIC approval. AIs sometimes adopt a proprietary
program to better accommodate borrowers who do not meet the strict criteria outlined by the
FDIC or Treasury’s program. DRR established a group to review bank proprietary loan
modification programs, and 27 such programs were approved as of August 15, 2011. Further,
the FDIC issued a letter on March 9, 2011 to all AIs encouraging them to employ a single-point-
of-contact protocol. In this way, a borrower applying for a loan modification would be assigned
to the same person regarding the status of his/her application. DRR tracks the number of
single-family loan modifications performed by the AIs as well as charge-offs resulting from
losses incurred as a result of the modifications.

The CMCs we interviewed stated that the AIs generally understood the loan modification
program guidelines, consistently applied the rules, and that their monitoring efforts were fairly
straightforward. Two CMCs said that the AIs were generally denying applications for
single-family loan modifications because the borrowers did not qualify, which has been
consistent with industry trends. The CMCs said that borrowers are typically denied loan
modifications due to the stringent standards of certain loan modification programs. As of
September 30, 2011, 30 percent of the AIs’ claims resulted from single-family loan
modifications. The CMCs also noted instances of non-compliance. For example, the CMCs
stated that:

    In some cases, AIs did not calculate a borrower’s income properly or accurately compute
     certain ratios related to a borrower’s income.




11
   The FDIC’s loan modification program is called the Loss Share Loan Modification Program and the Treasury’s
program is called the Home Affordable Modification Program.


                                                      22
   AIs with smaller single-family portfolios did not initially have loan modification programs in
    place.
   AIs did not consistently document their rationale for denying a loan modification application,
    as required by the Single-family SLA.

Further, one CMC noted that some AIs erroneously applied the debt-to-income provisions
specified by the FDIC’s loan modification program known as Mod-in-a-Box, which is on the
FDIC’s Web site. This program only applied to IndyMac Bank, which failed in 2008. The
Mod-in-a-Box program allows a borrower’s debt-to-income ratio to range from 31-38 percent.
Conversely, the FDIC’s current loan modification program limits a borrower’s debt-to-income
ratio to 31 percent. To avoid confusion, this CMC suggested that the FDIC remove the
information about the Mod-in-a-Box program from its Web site. DRR officials agreed with this
suggestion and stated that they planned to do so.

According to DRR, in general, when an AI is found to not have implemented a Loan
Modification Program correctly (or not at all), the AI is immediately required to take corrective
actions to implement or improve its program.

Commercial Loan Modifications. The Commercial SLA does not prescribe specific criteria
outlining when an AI is required to modify a commercial loan. Nevertheless, DRR has informed
the AIs that modifying commercial loans may reduce loan losses, legal costs, and non-accrual
and non-performing loans, and avoid foreclosures and selling related collateral in a depressed
market. Because of these benefits, DRR has encouraged AIs to modify commercial loans when
practicable. Additionally, section 3.2 of the Commercial SLA states that the AI shall administer
and manage shared-loss assets:

   Using its best efforts to maximize collections,
   In a manner consistent with its own policies and procedures, and
   In a manner consistent with normal and prudent banking practices.

The AI has the right to choose the workout strategy, provided it complies with these covenants.
DRR has also provided guidance to the AIs regarding what types of commercial loans may be
modified and under what circumstances to pursue such modifications. In March 2011, the FDIC
requested that AIs begin reporting the number of commercial loan modifications performed and
whether charge-offs resulted from the modifications. The AIs had only reported a small number
of commercial loan modifications as of June 30, 2011.

The CMCs review AIs’ efforts to modify commercial loans. Two CMCs said that the AIs
modify commercial loans, when possible. However, one CMC said that AIs rarely modify
commercial loans because doing so is not required by the Commercial SLA. Another CMC said
that the AIs may be reluctant to modify commercial loans because certain modifications result in
the loss of SLA coverage or at least raise questions about continued coverage. For example, if
an AI modifies a commercial loan so that its maturity date extends beyond the period covered
under the SLA, the loan is removed from SLA coverage. In December 2011, DRR changed its
policy and now allows SLA coverage to remain unaffected for such commercial loan




                                                23
modifications. The intent of this policy change is to promote commercial loan modifications,
where practicable.

Other restrictions in the Commercial SLA may make an AI reluctant to modify a commercial
loan. For example, the Commercial SLA limits an AI to providing a borrower up to an
additional 10 percent of the original loan balance, in order to retain SLA coverage of the related
asset. In such instances, the AI may decline funding requests that exceed this 10-percent
threshold. Also, under the terms of the Commercial SLA, if an AI makes a charge-off on a loan
and subsequently advances money to the borrower on the same loan, the AI will lose SLA
coverage on that loan. These provisions are intended to protect the FDIC’s interests. DRR
officials have explained these provisions to the AIs and also informed the AIs that the FDIC may
make exceptions to these provisions on a case-by-case basis.

Ensuring that Suspicious Activity Reports (SAR) Are Filed. In some instances, an AI’s
acquired SLA loans were associated with fraudulent or other suspicious activities. In such
instances, the AIs may have been required by law to file SARs. There is a risk that if an AI
acquires a fraudulent loan that ultimately fails and is charged off, the AI may not have an
incentive to also file a SAR. Instead, the AI may only file a claim with the FDIC for 80 percent
of the associated losses. None of the CMCs believed that an AI’s failure to file SARs, when
required, was a problem or serious risk to the SLA program. Three CMCs noted specific AIs
that acquired SLA loans where fraud was present but noted that the FDIC was aware of the
situations and taking appropriate action. The CMCs are not required to review an AI’s policies
and procedures associated with SAR filings. However, RMS staff are expected to review a
bank’s SAR filings as a part of their supervisory oversight efforts.12

Visitation Reports and Findings. Upon completing each visitation, the CMC or DRR
produces a draft report documenting its findings and recommendations for appropriate corrective
actions. The AI has an opportunity to review the draft report and submit a management response
for inclusion in the final report. A TOOM reviews the draft report and assists the CMC in
finalizing the report, which is approved by an OM and DRR’s Compliance Review Committee
(CRC). DRR’s goal is to finalize each report within 45 days of the CMC’s fieldwork completion
date and DRR tracks its progress in meeting this goal. For each finding identified in the report,
DRR establishes a timeframe within which the AI should implement corrective action. In an
effort to streamline the CMC visitation reports, DRR issued written guidance to the CMCs on
how to review and test for SLA compliance. The guidance also contained several templates on
how to report findings and recommendations. As a result, all of the CMCs’ visitation reports are
now formatted in a similar manner and contain more consistent information. Table 5
summarizes information related to visitations conducted in 2010 and through
September 30, 2011.




12
  Division of Risk Management Supervision: Guidance on Review of Suspicious Activity Reports, Memorandum
No. 6426, December 13, 2006.


                                                   24
Table 5: Visitation Reports and Corrective Action Statistics: 2010 and 2011
Reports                                   2010                 As of September 30, 2011
No. of Visitation Reports                                          191                                250
Total No. of Findings                                            2,025                              1,099

Types of Findings
  Administrative Oversighta                                       975                                428
  Reporting and Financialb                                        327                                137
  SLA Managementc                                                 723                                534

Recommendations Closed                                           1,978                                619
Questioned Costs
Total Questioned Costs                                  $153.4 milliond                    $328.2 million
   Amounts Recovered                                      $63.4 million                     $76.9 million
   Support Provided by AI                                 $72.7 million                      $5.9 million
   Unresolved Questioned Costse                           $17.2 million                    $245.4 million
Source: OIG-generated based on DRR data as of September 30, 2011.
a
  Findings involve compliance, staffing, policies and procedures, delinquency management, and
recordkeeping.
b
  Findings primarily involve the quality of an AI’s loss claims.
c
  Findings may involve questioned costs and primarily relate to charge-offs, recoveries, accrued interest,
reimbursable expenses, and documentation related to loan modifications and loss mitigation efforts.
d
  Originally, questioned claims from the 2010 visitation reports totaled $313 million. DRR revised this
estimate to $153 million based on further analysis.
e
  The amount of unresolved questioned costs typically declines as progress is made in resolving individual
audit recommendations.

In June 2011, DRR requested that the CMCs provide the amount of questioned costs in each
visitation report. In September 2011, DRR informed us that it had recently begun tracking
questioned costs as well as reversed claims and is able to break this information out by each AI
or CMC. We believe that it is important to track this information because questioned costs
demonstrate the added value the CMCs and DRR specialists provide to the oversight of the SLA
program and reversals represent DIF savings.

Closing Recommendations. DRR specialists and TOOMs track the resolution of all of the
SLA findings and work with the AIs and CMCs to ensure corrective actions are taken. For each
recommendation, the specialist or TOOM completes a standard form, which documents the issue
and its resolution. DRR managers sign the form when they believe an AI took appropriate action
in response to a recommendation and close out the recommendation. DRR staff input
information about the status of each finding and recommendation into DRR’s ICE data resource.
ICE is the FDIC’s official system of record for tracking and monitoring the disposition of all of
the SLA findings and recommendations.

In an effort to provide greater assurance that DRR is effectively tracking and closing
recommendations, Corporate Management Control adopted a risk-based approach to review
DRR’s supporting documentation for closing recommendations. Specifically, DOF reviews
DRR’s corrective action documentation related to all monetary findings with questioned costs




                                                   25
over $75,00013 and records information on these findings in its own tracking system. DOF will
also have access to ICE and may choose to review corrective action documentation pertaining to
any recommendations and thus will not be limited to only reviewing recommendations pertaining
to questioned costs above $75,000. DRR and/or DOF plan to formally document the new
process for closing SLA recommendations, the criteria that must be met to close out a
recommendation, and the respective roles of the offices.

Addressing Non-Compliance. Overall, the FDIC reported that the majority of AIs are diligent
in their efforts to comply with the SLA terms. Nevertheless, certain AIs have not complied with
the terms of the SLAs, and in those cases, the FDIC has the option to:

    withhold SLA payments,
    remove certain SLA assets from coverage,
    repurchase SLA assets, or
    terminate an AI’s participation in the program all together.

DRR has pursued each of those options with the exception of terminating an AI’s participation in
the program for non-compliance. Between December 2009 and November 2011, DRR issued
letters of non-compliance to seven AIs. According to DRR officials, as of September 2011, five
of the seven AIs have complied with the requirements outlined in the letters. DRR is continuing
to work with the remaining two institutions.

DRR uses a Watchlist report to monitor non-compliant AIs. The Watchlist report also includes
other AIs with risky SLA portfolios that DRR has determined warrant increased scrutiny. DRR
may place an AI on the Watchlist for any number of reasons, including failing to:

    treat its SLA assets in a manner consistent with its legacy assets,
    routinely maintain documentation in support of claimed expenses, or
    routinely take corrective actions in response to findings.

AIs with composite FDIC examination ratings of “3” or higher also appear in the Watchlist
report.

DRR staff are responsible for tracking an AI’s actions to resolve issues identified in the
Watchlist report. Further, in August 2011, DRR consolidated the oversight of the Watchlist
report in Dallas’ Field Operations Branch and this office updated the report to ensure its
accuracy. DRR plans to update and issue the report to DRR and RMS staff two times a month.
Finally, DRR plans to involve its CRC by having it approve the addition and deletion of AIs
from the Watchlist report.

DRR has issued guidance to its staff on how to coordinate with the CMCs and AIs to resolve
issues of non-compliance identified in the visitation reports and established procedures for
escalating issues when the AIs do not take appropriate corrective actions. However, DRR has

13
   DRR found that 98 percent of the questioned claim amounts were over $75,000. DOF stated that it would review
the threshold amount on a regular basis to determine if a change is warranted.


                                                      26
not issued guidance to its staff outlining what specific actions warrant an AI’s placement on the
Watchlist (i.e., how egregious an AI’s behavior should be), and specific procedures for handling
non-compliant AIs. Accordingly, we recommend that the Director, DRR:

       Recommendation 5. Update written guidance to define (1) criteria for placing an AI
       on the Watchlist, (2) types of actions DRR should take in response to different levels
       of non-compliance, (3) when to issue formal letters of non-compliance to AIs, and
       (4) criteria that demonstrate appropriate corrective actions. The guidance should
       also discuss the role of the CRC in reviewing the Watchlist reports, frequency of
       updates, and the distribution of reports to DRR and RMS staff on a routine basis.


Controls Related to Estimating and Evaluating Program Costs

The FDIC has established processes to estimate its costs associated with paying SLA claims and
monitoring the AIs. The FDIC includes the SLA loss estimates in its financial statements and
reconciles estimated to actual data as the data become available.

Estimating SLA Costs. DRR engages financial advisory contractors (financial advisors) to
assist in valuing failed bank assets. Specifically, to estimate the FDIC’s shared-loss payments, a
financial advisor reviews the failing bank’s loan-level information to estimate asset values and
develops two loss amounts: (1) a cumulative loss amount which reflects a "hold" strategy and
estimates the "intrinsic" value of the assets if an owner held the assets until the market improves
and (2) a market loss amount which reflects the value of the assets if they were sold today in a
depressed market. The financial advisors use their own models to value failed bank assets and
review a sample of loans at each failing institution to validate their valuation analyses.

The financial advisors provide an asset valuation report to the FDIC that includes the
assumptions and factors used to estimate the valuation amounts so that DRR can verify that it
agrees with the model’s assumptions. The financial advisors provide a “high” and “low”
estimate for cumulative losses and enter both estimates into their models; the models calculate
the midpoint, which is used as the loss estimate. The estimated cumulative losses are distributed
over 10 years for single-family assets and over 5 years for commercial assets.

DRR staff estimate CMC and in-house monitoring costs over the entire terms of the SLAs. DRR
staff estimate CMC costs by projecting the number of hours required to accomplish tasks and
applying the CMCs’ hourly rates. Travel costs are also included in the estimate. DRR’s
estimated in-house monitoring costs include salaries, travel costs, and data aggregator costs.

The FDIC has documented its methodology for estimating SLA costs. Estimated SLA costs are
recorded in the FDIC’s DIF financial statements as a loss reserve. Each month, DOF adjusts the
loss reserve up or down to reflect the FDIC’s actual shared-loss payments and receipt of
recoveries. The FDIC formed a Closed Bank Financial Risk Committee in July 2010 to provide
a governance structure over the FDIC’s process for estimating the cost of resolving failed insured
institutions and their assets. The committee reviews and approves the FDIC’s cost estimates,




                                                27
including valuations and performance methodologies, assumptions, and controls as well as any
changes that the FDIC makes to computing estimated losses and recoveries.

GAO reviews estimated loss figures as part of its annual financial statement audit of the FDIC.
In the 2009 financial statement audit, GAO identified a material weakness in the FDIC’s controls
over its process for deriving and reporting estimated SLA losses.14 Specifically, GAO found that
the FDIC’s existing controls were not fully effective in preventing or detecting and correcting
errors in developing and reporting loss-share estimates. In 2010, the GAO found that the FDIC
significantly improved its controls over this process and concluded that the FDIC no longer had a
material weakness in this area. However, the GAO found that the FDIC did not have clear and
comprehensive written procedures explaining all facets of its process for estimating SLA losses.
The FDIC agreed with this finding and stated that it would improve its documentation of the
loss-share estimation process through the development of better data flow diagrams and
improved linkages and traceability across documents. The GAO plans to evaluate the FDIC’s
documentation of the loss-share loss estimation process during its 2011 financial audit.15

GAO also found that the FDIC had not documented its plans for recovering the automated and
semi-automated processes supporting its loss-share estimation process in the event of a business
interruption. The FDIC had not documented or tested contingency plans that addressed restoring
computer programs, workstations, and datasets supporting the preparations of the loss estimates
and costs associated with SLAs or of the electronic workspaces where loss-share and asset
valuation information is stored. As a result, the GAO concluded the FDIC may not be able to
recover loss-estimation process data after a disruption and recommended action to address this
issue. The FDIC stated that it began taking corrective actions to address this issue and will
continue to so through December 2011.16

Comparison of Estimated to Actual SLA Losses. Through September 30, 2011, the
magnitude of actual SLA losses experienced by the AIs has been significantly less than the
FDIC’s projected losses. The FDIC estimated SLA losses to be $38.3 billion, compared to actual
losses of $23.6 billion, through September 30, 2011.17 These estimated and actual figures
include the FDIC’s and the AIs’ losses combined. The FDIC’s actual SLA payments, which
represent only the FDIC’s portion of the $23.6 billion of actual losses, were $14.6 billion as of
September 30, 2011.18



14
   A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.
15
   GAO Management Report: Opportunities for Improvements in FDIC’s Internal Controls and Accounting
Procedures, GAO-11-687R, August 5, 2011.
16
   GAO Report: Information Security: Federal Deposit Insurance Corporation has Made Progress, but Further
Actions are Needed to Protect Financial Data, GAO-11-708, August 2011.
17
    The FDIC estimates total losses over the life of all of the SLAs to be $60.1 billion. This figure includes the
FDIC’s and the AIs’ losses combined.
18
    As described on page 5 of this report, since March 26, 2010, the FDIC has generally covered 80 percent of an
AI’s losses. However, some SLAs were structured with loss tranches, whereby the AI assumed a certain amount of
losses before loss-sharing began or loss coverage varied in accordance with predefined loss levels.


                                                        28
The FDIC also compares estimated to actual burn rates for all of the AIs based on the quarter
when each bank failed. The burn rate shows the percentage of total projected losses that the
FDIC has paid to date. The FDIC’s actual burn rates are significantly lower than its estimated
burn rates, illustrating that the FDIC’s actual SLA payments are lower than its projected
payments, to date.

In making assumptions to estimate SLA losses and burn rates, DRR relies on analyses of SLA
assets performed by its financial advisors, makes estimates regarding default rates on SLA assets
and what the markets will do, and considers unemployment rates. According to DRR officials,
the differences between estimated and actual SLA losses and burn rates result from a number of
factors, including the following:

   DRR assumed there would be more upfront losses on the SLA assets than there have been to
    date;
   Many AIs have not submitted their loss claims timely, which delays the FDIC’s loss share
    payments; and
   Overall, commercial assets have recovered their values more quickly than what DRR had
    estimated.

Comparison of Estimated to Actual CMC Costs. With respect to estimated CMC costs,
DRR’s estimates were approximately 150-200 percent higher than actual costs incurred from
2009 through June 30, 2011. DRR officials attributed this disparity to the fact that when the
models were developed, DRR did not have related historical or actual data and therefore the
models relied primarily on expert opinions. According to DOA, the FDIC expended
$45.1 million on the eight CMC contractors for SLA monitoring efforts, as of October 7, 2011.
With respect to estimated in-house monitoring costs, DRR estimates this information for its own
internal management purposes but does not identify actual monitoring costs by SLA, as neither
estimated nor actual in-house monitoring costs are required to be separately identified by SLA in
the FDIC’s financial statements.

Controls for Terminating SLAs Early

In deciding whether to approve an AI’s proposal for an early termination, the FDIC’s goal is to
maximize DIF savings. The FDIC has established guidance and a process for evaluating an AI’s
offer for an early termination and successfully executed three early terminations that resulted in
DIF savings, according to the FDIC. DRR continues to update its procedures related to assessing
early termination requests as modifications are made to the process.

Early Terminations. As the dollar amount of the remaining covered assets declines over the life
of the SLA, an AI may have an incentive to terminate an SLA with the FDIC to reduce or
eliminate future compliance costs and discontinue the level of FDIC oversight. The FDIC also
has an incentive to accept an early termination offer if its acceptance results in estimated savings
to the DIF. The early termination process is generally initiated in one of two ways: (1) the FDIC
reaches out to the AI and presents the opportunity for early termination or (2) the AI presents the
FDIC with an offer to terminate early.




                                                29
An offer to terminate occurs when an AI proposes a dollar amount that the FDIC would pay the
AI in exchange for an early termination. An AI may submit a proposal to terminate an entire
single-family or commercial portfolio, or both. An AI, however, is not allowed to propose the
termination of the FDIC’s shared-loss coverage of only certain assets of a particular portfolio.
The FDIC conducts a preliminary analysis to determine whether an AI’s proposal is reasonable,
or has the potential to generate a cost savings. If the FDIC concludes that the offer is reasonable,
it engages a financial advisor to examine the AI’s remaining shared-loss portfolio to estimate the
cumulative loss related to those assets. If the FDIC concludes the AI’s offer does not appear to
generate a cost savings to the FDIC (i.e., significantly “out of the money”), it rejects the offer
outright, without engaging a financial advisor’s services.

For those offers that the FDIC deems are reasonable, the financial advisors perform a detailed
analysis to estimate the FDIC’s total cost to continue coverage of the SLA assets through the full
term of the Agreement (the FDIC’s take-out price). The FDIC compares the AI’s early
termination offer to the FDIC’s take-out price. If the AI’s offer is “in the money” (i.e., generates
an estimated cost savings to the DIF), the FDIC will preliminarily accept the AI’s termination
offer. Finalizing an early termination involves coordination with appropriate FDIC regional and
headquarters staff in DRR, RMS, and Legal as well as the AI’s primary federal regulator and
chartering authority. Finalization is contingent upon the resolution of all outstanding SLA
claims and issues. DRR, in consultation with the Legal Division, finalizes the early termination
decision. As part of its review, RMS is required to assess the AI’s financial condition, the
impact on the AI from the loss of indemnification on the covered assets, and the risks to the DIF
associated with an early SLA termination.

The FDIC does not publicly disclose its take-out price and instead asks an AI to submit its best
faith buyout offer. If the FDIC rejects the offer, the AI may resubmit an offer at the FDIC’s
discretion. FDIC staff stated that they would not negotiate a settlement amount with an AI.

The FDIC provided guidance to the AIs on how to submit a proposal for an early termination
agreement. The FDIC also provided detailed guidance to the financial advisors on how to
estimate the FDIC’s costs to maintain an SLA for its full term. In March 2011, RMS also issued
guidance to its staff on how to evaluate the impact on an AI associated with an early termination
agreement.19 DRR planned to incorporate its procedures related to assessing early termination
requests into its RSAM manual by the end of January 2012.

On November 8, 2010, the FDIC’s Board of Directors authorized DRR to terminate individual
SLAs. If the SLA assets total $50 million or less, the Director of DRR has the delegated
authority to approve and sign off on the early termination agreement. If the SLA assets are
greater than $50 million, DRR drafts a Board Case and the FDIC’s Board of Directors is required
to sign off and approve the early termination. As of October 12, 2011, the FDIC

    executed three early terminations, resulting in DIF savings according to DRR’s
     calculations,20
19
   Division of Risk Management Supervision: Early Termination of Shared-Loss Agreements, Memorandum No.
2011-011, March 24, 2011.
20
   We did not validate these calculations.


                                                   30
    was considering two additional terminations, and
    rejected 16 proposals.

Twelve other AIs submitted requests for terminations but subsequently indicated no further
interest in terminating their agreements.

In August 2011, DRR’s Internal Review unit initiated a review of the controls surrounding the
early termination process. As part of the review, DRR plans to evaluate the internal controls,
policies, and procedures associated with the SLA early termination process. DRR also plans to
determine the effectiveness of the models used to estimate costs associated with early
terminations and maintaining the SLAs for their entire terms.


Summary of Prior OIG SLA Reports

As discussed in the background section of the report, since 2008 most P&A Agreements have
included a loss-sharing provision. The OIG initiated audit work in this area because of the
financial risks associated with those transactions. The objective of each of the OIG’s five prior
SLA audits was to evaluate the respective AI’s compliance with the terms of its SLA with the
FDIC. The audits specifically focused on evaluating the AI’s SLA policies and procedures,
compliance with the SLA reporting requirements, and the extent to which the AI maximized
returns. The audits also addressed the FDIC’s oversight of the SLAs. The OIG selected the AIs
that were reviewed based on the size of their SLA portfolios (a mix of large and small) and input
from DRR.

Overview of Findings and Status of Corrective Actions. The audit reports concluded that
none of the assuming institutions were in full compliance with the terms of the SLAs. Table 6
summarizes the number of recommendations and questioned costs identified in each audit report.

Table 6: Report Recommendations and Questioned Costs as of September 30, 2011
                                                                 FDIC’s
                                                   Total        Share of
          Report    Number of    Submitted      Questioned     Questioned     Recovered
   AI      Date       Recs.       Claims           Costs         Costs         Costs *
     1      5/11/2010         20             $870,000,000          $13,105,913     $10,484,731        $8,025,167
     2      9/10/2010         18             $844,100,000          $19,722,788     $15,778,230      $14,726,911*
     3      9/10/2010         20             $473,000,000          $11,712,333      $9,369,866       $6,732,604*
     4      1/10/2011         14               $96,300,000          $9,489,573      $7,591,658                $0
     5       6/9/2011         13             $115,400,000          $30,275,153     $24,220,123          $336,115
    Total                     85            $2,398,800,000         $84,305,760     $67,444,608       $29,820,797
Source: OIG analysis of audit reports and related documentation as of September 30, 2011.
* Based on the OIG’s initial findings, these assuming institutions identified an additional $2,546,831 of
questioned costs that resulted in recoveries associated with assets outside of those sampled by the OIG.
This additional amount was recovered from AIs 2 and 3 and is not reflected in this table.

The reports generally recommended that DRR disallow the questioned costs, inform the AIs of
actions required to ensure SLA compliance, and implement policies and procedures to ensure


                                                   31
compliance with the SLAs. The reports also identified $409,842 of funds that could have been
put to better use as a result of a lack of consistency between the SLA provisions and guidance
provided by DRR regarding loan modifications and the disclosure of gains. DRR agreed with
80 recommendations, partially agreed with 3 recommendations, and disagreed with
2 recommendations. The five recommendations for which DRR partially or fully disagreed
pertained to policy and reporting matters. DRR provided a sufficient explanation to the OIG
regarding its disagreement with these recommendations and they were subsequently closed out.

The FDIC implemented corrective action to address 79 of the 85 recommendations and plans to
address the remaining recommendations by March 31, 2012. The FDIC had recouped
$29.8 million of the $67.4 million of questioned costs as of September 2011. DRR did not
pursue $6.2 million of questioned costs from three AIs.21 DRR has been working with the five
AIs to resolve the outstanding questioned costs and expects to resolve these issues by
March 2012. Table 7 shows the status of the recommendations.

Table 7: Status of Recommendations, as of January 26, 2012
  Assuming      Report     Number of                                                    Percentage of
  Institution     Date       Recs            Closed Recs                                Closed Recs
       1            5/11/2010               20                       20                       100%
       2            9/10/2010               18                       18                       100%
       3            9/10/2010               20                       19                        95%
       4            1/10/2011               14                       11                        79%
       5             6/9/2011               13                       11                        85%
      Total                                 85                       79                       93%
Source: OIG analysis of audit reports and related documentation.




21
    For the following reasons, DRR did not collect $6.2 million of the identified questioned costs: (1) Certain
questioned costs resulted from claims the AIs made based on estimated expenses. The SLA requires claims to be
made against actual expenses. After the related audit reports were issued, the AIs incurred the actual expenses and
therefore DRR did not pursue the related questioned costs. (2) Due to a misinterpretation of the SLAs, the FDIC
erroneously informed AIs that certain claims related to accrued interest were eligible and therefore did not pursue
the related recoveries. (3) Upon further review, certain questioned costs were found to be eligible for
reimbursement or unsupported.


                                                         32
Trends in Report Findings. While each report included findings unique to the AIs reviewed,
the reports also included several common findings. Table 8 summarizes the common findings.

Table 8: Summary of Common Findings in Prior OIG SLA Reports
                                                                                                       FDIC’s
    Finding and                                                                           Total       Share of
   Frequency of                                                                        Questioned    Questioned
      Finding                         Description of Finding                             Costs*        Costs*
Improperly                 Using questioned collateral value;                         $45,212,999   $36,170,399
Calculated Losses          Using unsubstantiated collateral value;
                           Using questioned asset value;
                           Rounding the collateral appraisal value;
                           Using a fixed charge-off calculation instead of
4 reports                   performing a repayment analysis;
                           Using an incorrect loan balance;
                           Estimating expenses incorrectly;
                           Submitting duplicate charge-off claims; and
                           Manual input errors.
Improperly Accrued         Claiming losses for accrued interest on loans that         $12,309,119    $9,847,295
and Claimed                 were classified as real estate owned, a designation that
Interest                    requires loans to be non-accrual for accounting
                            purposes.
                           One of the three institutions also claimed accrued
                            interest losses for periods in excess of the maximum
3 reports
                            allowable 90 days specified in the SLAs.
Unsupported Claims         Missing documentation that the charge-off calculation      $10,222,577    $8,178,062
                            had been properly computed and supported for 17 of
                            38 loss claims reviewed at one AI.
2 reports                  In another case, the AI could not find two of the loan
                            files requested for testing. The report concluded that
                            the AI’s poor record retention practices could
                            compromise the accessibility and integrity of its loss
                            claims.
Notification and/or        4 AIs failed to notify the FDIC within timeframes             N/A           N/A
Timeliness of Claims        required for full or partial charge-offs.
                           1 AI failed to submit loss claims for single-family
5 reports                   loans within timeframes required under the SLA.
Policies and                DRR had not finalized key internal procedures for       N/A              N/A
Procedures                   overseeing AIs’ compliance with SLAs, at the time
                             the OIG reports were issued.
                         DRR could clarify or provide additional guidance to
5 reports                    the AIs pertaining to certain program requirements.
                         DRR could improve the consistency of its
                             communications with the AIs.
                         DRR could strengthen internal controls regarding its
                             process for reviewing and paying loss claims.
Source: OIG analysis of five previously issued SLA audit reports.
*Represents the total questioned costs and the FDIC’s share of those costs for the reports where findings
were identified.




                                                     33
OIG EVALUATION OF MANAGEMENT COMMENTS

After we issued our draft report, DRR management provided additional information and informal
comments for our consideration and we revised our report to reflect this feedback, as appropriate.
The Director, DRR, provided a written response, dated February 10, 2012, to a draft of this
report. The response is presented in its entirety in Appendix IV. Management concurred with
the report’s five recommendations and agreed to work with DOA to address issues involving
joint responsibility. DRR expects to address recommendation 1 of the report by April 30, 2012
and the remaining four recommendations by July 31, 2012. The planned actions were responsive
to the recommendations. A summary of management’s responses to our recommendations is
presented in Appendix V.




                                               34
                                                                                    Appendix I

                     OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

The objectives of the evaluation were to (1) evaluate DRR’s overall efforts to monitor and ensure
compliance with the terms and conditions of the SLAs and (2) summarize the findings and
recommendations in the five OIG reports on SLA compliance issued to date and associated
actions that the FDIC has taken.

We performed our evaluation between May 2011 and October 2011 in accordance with the
Council of Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.

Scope and Methodology

To accomplish our objectives, we:

   Gained an understanding of how the SLA program works and how FDIC monitors the
    program, including its process for storing and organizing SLA information.

   Reviewed the existing SLA framework in order to gain an understanding of the FDIC’s
    process for identifying and mitigating risks associated with the SLAs.

   Reviewed prior OIG, GAO, and DRR Internal Review reports that covered the SLA program
    to identify potential areas of risk and the FDIC’s actions to mitigate such risks.

   Determined what the FDIC has done to ensure a consistent approach to the way in which
    SLAs are monitored and claims for reimbursement are considered and processed. This
    included a review of the FDIC’s selection of a data aggregator contractor.

   Reviewed the FDIC’s process for selecting, training, and overseeing the CMCs.

   Analyzed the FDIC’s process for tracking and following up on findings and
    recommendations pertaining to the assuming institutions’ compliance with SLA provisions.

   Interviewed DRR headquarters and regional office officials responsible for monitoring and
    ensuring compliance with the SLA program.

   Interviewed officials in DOA, RMS, DOF, and the Legal Division.

   Interviewed GAO officials and contractors hired by the FDIC to assist with SLA monitoring
    activities, including the CMCs.

   Performed tests to determine the FDIC’s compliance with SLA policies and procedures.




                                               35
                                                                                Appendix I

                     OBJECTIVES, SCOPE, AND METHODOLOGY


   Reviewed and summarized pertinent findings and the disposition of the 85 recommendations
    contained in 5 OIG reports on SLA compliance. We also followed up with FDIC officials to
    determine what actions the FDIC has taken to close recommendations and recoup questioned
    costs identified in these reports.




                                             36
                                                                                   Appendix II

                       CMC FEEDBACK ON THE SLA PROGRAM


The CMCs provided several areas of positive feedback regarding the SLA program. The CMCs
said the program was working well, is meeting its objectives, has been accepted in the
marketplace, has kept the United States out of a greater recession, and is preferable because it
allows the AIs to manage the SLA assets. The CMCs were generally satisfied with the level of
communication they had with DRR officials and found that DRR’s use of a secure virtual data
room to share information with the CMCs and AIs is very useful. The CMCs also commented
that the consistency of DRR’s guidance has improved as the program has matured and the FDIC
has clarified ambiguous terms present in earlier versions of the SLAs. The CMCs also stated
that DRR or the FDIC should do the following to improve the SLA program:

   Continue to ensure that the guidance provided to the CMCs and AIs is consistent. In
    particular, some CMCs noted that TOOMs sometimes provided conflicting information and
    that some TOOMs were more helpful than others.

   Provide additional training to the CMCs.

   Compile and share a list of best monitoring practices with the CMCs.

   Provide the CMCs with additional lead time regarding when it plans to issue a task order.
    The lead time would enable the CMCs to better plan for the task orders by ensuring
    appropriate staffing.

   More quickly provide legal opinions regarding specific questions raised about the terms of
    the SLAs.

   Allow the CMCs to post the loans they select for sample testing on the FDIC’s secure virtual
    data room, so the TOOMs can readily review this information.

   Ask a small number of AIs to beta test proposed changes to the FDIC’s electronic process for
    reviewing claims from AIs.




                                               37
                                                                  Appendix III

   CHANGES IN THE GENERAL STRUCTURE OF SLAs SINCE NOVEMBER 2008




Source: Excerpt from FDIC PMO report, as of September 30, 2011.




                                               38
                                                                                           Appendix IV
                                       MANAGEMENT COMMENTS




550 17th Street NW, Washington, D.C. 20429-9990                                 Division of Resolutions and Receiverships

DATE:                February 10, 2012

TO:                  Stephen M. Beard
                     Deputy Inspector General for Audits and Evaluations
                        /Signed/
FROM:                Bret D. Edwards
                     Director, Division of Resolutions and Receiverships

SUBJECT:             Response to Draft Audit Report Entitled, Evaluation of the FDIC’s
                     Monitoring of Shared-Loss Agreements (Assignment No. 2011-062)

This memorandum is in response to the recommendations in the subject draft audit report dated,
December 20, 2011.

DRR appreciates the many relevant observations and recommendations provided by the OIG.
We look forward to working with the OIG to ensure that the oversight of the SLAs meets the
program’s objectives.

DRR has notified all program areas impacted by the findings of the subject audit and has been
working in consultation with them in order to prepare this response. DRR anticipates continuing
participation from the program areas in order to establish a corrective action plan and to address
all recommendations.

OIG Audit Recommendation 1: Review the current process for issuing task orders to
determine whether there are opportunities for streamlining and then establish a goal for the
timeframe within which a Compliance Monitoring Contractor (CMC) task order should be
issued.

          DRR Response: DRR agrees with this recommendation. DRR, in conjunction with
          DOA, will review the current process for issuing task orders to determine whether there
          are opportunities for streamlining and establishing the goal(s) for the timeframe(s) from
          the point in time the P&A Agreement is signed to the issuance of a CMC task order.
          DRR expects to complete the above actions by April 30, 2012.

OIG Audit Recommendation 2: Evaluate the Division of Administration (DOA) and DRR
evaluation processes and related forms and determine whether there are efficiencies that can be
gained in how CMC contractor performance is monitored and assessed, and take appropriate action.

          DRR Response: DRR agrees with this recommendation. DRR will evaluate, in
          coordination with DOA, the DRR evaluation process and related forms and determine
          whether there are efficiencies that can be gained in how CMC contractor performance is
          monitored and assessed, and will take appropriate action. DRR expects to complete the
          above actions by July 31, 2012.




                                                    39
                      Appendix IV

MANAGEMENT COMMENTS




        40
                                                                                          Appendix V

     SUMMARY OF MANAGEMENT’S RESPONSE TO THE RECOMMENDATIONS


This table presents management’s response to the recommendations in our report and the status
of those recommendations as of the date of report issuance.

                                                           Expected
Rec.                                                      Completion      Monetary     Resolved:a    Open or
No.         Corrective Action: Taken or Planned              Date         Benefits     Yes or No     Closedb
 1      DRR, in conjunction with DOA, will review the           April 30, 2012  $0          Yes       Open
        current process for issuing task orders to determine
        whether there are opportunities for streamlining and
        establishing the goal(s) for the timeframe(s) from the
        point in time the P&A Agreement is signed to the
        issuance of a CMC task order.
  2     DRR will evaluate, in coordination with DOA, the        July 31, 2012   $0          Yes       Open
        DRR evaluation process and related forms and
        determine whether there are efficiencies that can be
        gained in how CMC contractor performance is
        monitored and assessed, and will take appropriate
        action.
  3     DRR will conduct a review of the CMC and DRR            July 31, 2012   $0          Yes       Open
        monitoring and visitation plans to identify best
        practices, testing areas, and core elements that should
        be included in all of the monitoring and visitation
        plans and develop and issue additional guidance.
  4     DRR will issue guidance to DRR staff and the CMCs July 31, 2012         $0          Yes       Open
        on how to evaluate whether AIs are sufficiently
        pursuing and reporting recoveries on covered assets.
        Guidance will include procedures for testing whether
        recoveries have been made on any zero balance
        covered assets.
  5     DRR will update written guidance to define (1)          July 31, 2012   $0          Yes       Open
        criteria for placing an AI on the Watchlist, (2) types
        of actions DRR should take in response to different
        levels of non-compliance, (3) when to issue formal
        letters of non-compliance to AIs, and (4) criteria that
        demonstrate appropriate corrective actions. The
        guidance will discuss the role of the CRC in
        reviewing the Watchlist reports, frequency of
        updates, and the distribution of reports to DRR and
        RMS staff on a routine basis.
a
  Resolved–(1) Management concurs with the recommendation, and the planned, ongoing, and
                  completed corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the
                  intent of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                  amount. Monetary benefits are considered resolved as long as management provides an
                  amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that
corrective actions are complete or (b) for recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                   41
